                                                                                           NATIONAL SCIENCE FOUNDATION
                                                                                           OFFICE OF INSPECTOR GENERAL
                                               .                                             OFFICE OF INVESTIGATIONS

                                                 o                                    CLOSEOUT MEMORANDUM
                                                                                                                                                       -




                                          Case Number: A05030012                                                                         Page 1of 1
    ...,


                                                     This case was operied6aspart of our proactive review of grantees' use of participant              . .
                                                     funds. We randomly-selected this grant1 because it fit the selection criteria; it :, . : . .. .
., ,... .
                                                     designated$270;000 a s participant support f u n d s . i t ~ ewrote to the grantee ::.+\,r*:r....-...,.
                                                                                                                                            :j


                 .
. ., .
      i i      :       I
                                         -           requesting docAmintation of its participant suljpolrt exp&nditures.
                                                                         4                                          r{
                                                                                                                                   , . , z;[     c v           ,-.%L ;?
                                                                                                                                                                      :



      . .. .? i ,
', < T " i
.         .,                               : The grante'e~proviiied~ali~internal
                                        i * ;~..                               audit report,~ha~list~~~expenditure's'~againstthq.i i* ;i
,.
8,s.;:
      .. .,&          1:.               r: ..award>i.However, there was~n0~.8xplanation
                                        *$J:                                             aboubthk a&dounting.xod8s'ahd.th6 i + -       ;
    .' C., :',
,..>.,?"
                                    "i- r~ziiparticipantsupport costs-were:n~t,delineated?:-~~ased 04bur2-review?:i~aappeared.         .,
.:
W         3 ,,,"<<,'       i.       :a **ax-!phrtidipant funds might have.bCbn;expendedl041the ~1:rihd  other; iioriiallowable   ., ,
                                             items. Therefore, this case was opened to investigate the matter.
                                                                                                                     :y   '.
      .
 *,1.J..I.
I ,
         .s.. . . .
          .,.
                       .     .In.response to our Snquiry,. t h e kiantee piovideq;thb xaccpkting .code-used for
                                        il: i - ca
                                                                                            i
                                                                                                                                    52
                                                                                                                                             , . .>
                                                                                                                                                  -.
..> I : , wsi; iparticipant support and sent-anew:~,udi&re~or$;i~ith                     psrticipant support separated . i:                     .

                                                                                                                                                           .
?,-...I:
      .~.,:,,#

.,{,:; $r ir :$ q.iout.;..We reviewed the informationxmdtbbinpar<d,the. ~ l ~ a ~ d i t ~ ~ r e ~
.
1     L.       >..I
                                :
                                                                                                                         .an
                                                                                                                           ~ ) r At :
                                                                                                                                    ~ ~ T,argG,,
                                                                                                                                             with
$W $-! k5:.:$;,-;.understanding
      .                                      of-the.accounting; dodeskoithe n $ ~ ~ , a u d i t ; ? e p o r t . . ~ ~was.genera1
                                                                                                                      ~here           -.:ii%soi                %
,,p

,;ykA- .Ci, q7. , +,
  ,  .
               ,                             .
                  ::I .,.,*.n agreement betweeil the two. sWe7were-atile)to-confirm-a1Ehhe~participant:support                     ., . .':a i c
h2:. 2 r:                    )chargeswere spent on participants;~nonqiwer:ei"Spent;
                                        :;:Lq:iq,r                                     o n $ h e : ~ ~ \ inappropriate.
                                                                                                             oi                            :.+>3:r7p
;,$?.; + . : ;I. :I. F items. We noted the~auditrreport:accounted~fo~~$266,;106ut                     of the allotted                     .;dki41~:    5



 * . - . I
.,.*I:         :              $270,000, so we asked  the grantek-to-explain    the3discredancy.         It  said     the missing
                              $3,894 was never drawn down. :It was part of the funds the grantee never
      , .
                              obligated. As the grantee suggested we verified tEe unobligated funds by
                              examining its Federal Cash Transaction Reports. In conclusion, since the grantee
                              accounted for the participant support funds, and none were spent on the PI or other




                                    '
                                    I
                                        NSF OIG Form 2 (1 1/02)
